"Review of Mutual of Omahas Oversight of Medicare Inpatient Acute Care Providers Receiving Periodic Interim Payments,"(A-07-01-02616)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Mutual of Omahas Oversight of Medicare Inpatient Acute
Care Providers Receiving Periodic Interim Payments," (A-07-01-02616)
August 13, 2001
Complete
Text of Report is available in PDF format (529 KB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Mutual of Omaha did not always properly quantify
periodic interim payments (PIP) to hospital providers in final cost report settlements.
As a result, Mutual of Omaha overpaid five of the eight hospitals included in our
review a total of $636,867. The overpayments resulted from the omission of certain
payments (outlier payments) from the worksheet used to determine final payments
due a provider. As a result of our work Mutual performed a comprehensive review
of settled cost reports for other PIP providers and found that total overpayments
were about $10.8 million. Further, this may be occurring at other fiscal intermediaries
involving about 1000 hospitals nationwide that receive periodic interim payments.
In addition to financial adjustments, we recommended that the Centers for Medicare
and Medicaid Services (CMS) direct Mutual of Omaha to implement procedures to ensure
that future cost report settlements include the proper calculation of interim payments.
We also recommended that CMS work with the Office of Inspector General to determine
whether interim payments made to hospitals at other fiscal intermediaries were
calculated correctly at final settlement. The CMS concurred with our recommendations
and is monitoring Mutuals collection of the overpayments.